                The Integrated Financial System Software
                Does Not Comply With Some Accounting
              Standards or Contain Certain Functionality as
                   Originally Asserted by the Vendor

                                 September 2004

                       Reference Number: 2004-10-187




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 September 23, 2004


      MEMORANDUM FOR CHIEF FINANCIAL OFFICER


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report – The Integrated Financial System Software
                                   Does Not Comply With Some Accounting Standards or Contain
                                   Certain Functionality as Originally Asserted by the Vendor
                                   (Audit # 200410003)

      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      planned Integrated Financial System (IFS). The overall objective of this review was to
      determine whether the IFS, when implemented, would function as intended to provide
      administrative financial management information that is essential for financial statement
      preparation and useful to IRS managers and others.
      The implementation of the proposed IFS will greatly affect the way the IRS records and
      reports both administrative and custodial accounting transactions. Further, this system
      represents a key element of the corrective actions being taken by the IRS to ensure its
      accounting system is in compliance with the Joint Financial Management Improvement
      Program’s (JFMIP)1 Federal Financial Management System Requirements, and
      provides accurate and timely financial information for management decision making.
      In summary, we determined that the IFS may be at risk of being noncompliant with
      Federal Financial Management Improvement Act of 1996 (FFMIA)2 requirements. The
      IFS either does not include functionality required by various accounting standards or
      has had workarounds initiated by the IRS to compensate for the nonfunctionality.
      Further, the IRS needs to take a coordinated and united stance when negotiating any
      costs with the contractor over asserted “Out of the Box” requirements that are not met


      1
        The JFMIP is a joint undertaking of the United States Department of the Treasury, the Government Accountability
      Office (formerly the General Accounting Office), the Office of Management and Budget, and the Office of
      Personnel Management working in cooperation with each other and other agencies to improve financial
      management practices in the Federal Government.
      2
        Pub. L. No. 104-208, 110 Stat. 3009.
                                           2

by the vendor’s software. We also identified that contractor-performed data conversion
efforts are progressing, including evaluations being made by an independent IRS
validation team to ensure the converted data was accurately recorded. Finally,
progress has been made on a previously reported Treasury Inspector General for Tax
Administration finding to ensure that all JFMIP requirements are addressed in the
system’s design.
We recommended the Chief Financial Officer (CFO) ensure that all JFMIP and FFMIA
requirements and accounting standards are operating before the IFS deployment. If
this is not feasible, the IRS should move to the government version of the IFS as soon
as possible, and the CFO should ensure that these requirements are included in that
version. We also recommended the CFO, in concert with the Director of Procurement
and the Associate Chief Information Officer, Business Systems Modernization, ensure a
coordinated and united stance is taken when conducting negotiations with the IFS
contractor concerning the costs associated with the functionality of accounting
requirements that were asserted to be ready for deployment by the software
subcontractor. These officials should also ensure all costs are considered when any
negotiations are held concerning system requirement deferrals. Finally, we
recommended that the CFO ensure that all JFMIP requirements not originally included
in the IFS’ System Requirements Report are added to subsequent versions of the report
and are included in future IFS releases.
Management’s Response: IRS management agreed with our recommendations. The
CFO will ensure those requirements not satisfied in the IFS Release 1 are implemented
in subsequent enhancements or upgrades. Upon successful implementation of the IFS
Release 1, the CFO will develop an action plan to address enhancements and future
releases of the IFS – especially the upgrade to the Federal Government version of the
software, which should close many of the existing JFMIP gaps. Additionally, the CFO
has implemented the recommendation to coordinate the IFS contract negotiations with
the Director, Procurement, and the Associate Chief Information Officer, Business
Systems Modernization, and has worked together to ensure all costs associated with
the requirements that were asserted to be ready for deployment by the software
subcontractor, but not delivered in Release 1, were included in the negotiations. The
IRS’ current contract is a cost-sharing contract where the IRS is responsible for
24 percent of the costs and the contractor is absorbing 76 percent of the costs incurred
from May 1, 2004, through January 31, 2005. Management’s complete response to the
draft report is included as Appendix IV.
Office of Audit Comment: The IRS, when acquiring subsequent releases of the IFS
containing the requirements that were asserted by the subcontractor to be functional in
Release 1, should take into consideration any significant deviations from the
concessions received during the recent negotiations when estimating or accepting a
price for those future releases.
                                          3

Copies of this report are also being sent to the managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organization Programs), at (202) 622-8500
                 The Integrated Financial System Software Does Not Comply With
                  Some Accounting Standards or Contain Certain Functionality
                               as Originally Asserted by the Vendor




                                                  Table of Contents


Background ............................................................................................... Page 1
Risk of Noncompliance With the Federal Financial
Management Improvement Act of 1996 .................................................... Page 3
         Recommendation 1: .......................................................................Page 7

Asserted Out of the Box Requirements Were Not Met by
Vendor Software ...................................................................................... Page 7
         Recommendations 2 and 3 ............................................................Page 9

Data Conversion Efforts Are Progressing.................................................. Page 10
Progress Has Been Made to Ensure All Joint Financial
Management Improvement Program Requirements
Are Addressed .......................................................................................... Page 11
         Recommendation 4: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Management’s Response to the Draft Report ................... Page 18
             The Integrated Financial System Software Does Not Comply With
              Some Accounting Standards or Contain Certain Functionality
                           as Originally Asserted by the Vendor

                                  The Internal Revenue Service (IRS) is in the midst of
Background
                                  Business Systems Modernization (BSM), a major
                                  technological and business process transformation program.
                                  The BSM will radically change the IRS’ approach to
                                  satisfying its customers – the taxpayers.
                                  To achieve legislative compliance and provide critical
                                  financial management information, the IRS acquired,
                                  through contractor assistance, a commercial-off-the-shelf
                                  software package, designated as the Integrated Financial
                                  System (IFS), as a cost-effective alternative to improve its
                                  financial systems. The implementation of the proposed IFS
                                  will greatly affect the way the IRS records and reports both
                                  administrative and custodial accounting transactions. In
                                  addition, the development of the IFS supports one of the
                                  President’s Management Agenda initiatives to improve
                                  financial performance, which involves ensuring Federal
                                  Government financial systems produce accurate and timely
                                  financial information for management decision making.
                                  One basic, yet significant, requirement of the IFS is that the
                                  system is to be compliant with the Joint Financial
                                  Management Improvement Program’s (JFMIP)1 Federal
                                  Financial Management System Requirements.2 The IRS
                                  also expects the IFS to resolve several longstanding
                                  financial management issues, including the compliance with
                                  JFMIP requirements, identified by the Government
                                  Accountability Office (GAO) during the annual financial
                                  statement audits.
                                  The IRS plans to implement the IFS in a series of releases
                                  over a period of several years. Release 1 will include the
                                  JFMIP core accounting functions of Accounts Payable,
                                  Accounts Receivable, General Ledger Management, Budget

                                  1
                                    The JFMIP is a joint undertaking of the United States Department of
                                  the Treasury, the Government Accountability Office (formerly the
                                  General Accounting Office), the Office of Management and Budget, and
                                  the Office of Personnel Management working in cooperation with each
                                  other and other agencies to improve financial management practices in
                                  the Federal Government.
                                  2
                                    The Federal Financial Management System Requirements are a series
                                  of publications prepared by the JFMIP as the key requirements that
                                  agency systems must meet to be substantially compliant with generally
                                  accepted accounting principles for the Federal Government.
                                                                                               Page 1
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     Execution, Cost Management (also referred to as Cost
                     Accounting), and Financial Reporting, as well as Budget
                     Formulation. Release 1 will also include the mandated
                     Health Coverage Tax Credit functionality. Subsequent
                     releases will provide for additional financial management
                     functions, including Property and Procurement
                     Management, and enhancements to the cost accounting and
                     finance modules. However, these future releases and
                     enhancements are on hold and are currently unfunded.
                     To increase the probability that the IFS will function as
                     intended and meet defined requirements, the IRS is working
                     with a contractor to conduct system testing prior to
                     deploying the IFS. System testing is an essential component
                     of the Enterprise Life Cycle, which governs system
                     development activities and is required by IRS procedures.
                     This online audit is a follow-on review to our two prior
                     audits. In the first audit report, issued in August 2003,3 we
                     reported on IFS requirements definition. In the second audit
                     report, issued in March 2004,4 we reported on IRS’ IFS
                     phase I system-testing efforts. In addition, the Treasury
                     Inspector General for Tax Administration (TIGTA)
                     Information Systems Programs audit staff, who are
                     responsible for evaluating systems modernization from an
                     information technology perspective, have previously issued
                     a report containing concerns about IFS testing.5
                     This review was performed at the IRS National
                     Headquarters in the office of the Chief Financial Officer
                     (CFO) located in Washington, D.C., and the contractor’s
                     testing site located in Lanham, Maryland, during the period
                     November 2003 through July 2004. The audit was
                     conducted in accordance with Government Auditing
                     Standards. Our ability to totally accomplish our audit
                     objective as initially envisioned was limited in that we


                     3
                       Requirements Definition of the Integrated Financial System
                     (Reference Number 2003-10-179, dated August 2003).
                     4
                       Improvements Are Needed for Subsequent Integrated Financial System
                     Testing (Reference Number 2004-10-052, dated March 2004).
                     5
                       Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date (Reference
                     Number 2004-20-001, dated October 2003).
                                                                                 Page 2
              The Integrated Financial System Software Does Not Comply With
               Some Accounting Standards or Contain Certain Functionality
                            as Originally Asserted by the Vendor

                                   encountered situations beyond our control that affected our
                                   testing scope. Detailed information on our audit objective,
                                   scope, and methodology (including certain audit scope
                                   limitations encountered during the audit) is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   This audit was conducted while changes were being made to
                                   both IFS system design and business process procedures.
                                   Any system design or business process changes that have
                                   occurred since we concluded our analyses are not reflected
                                   in this report.
                                   The Federal Financial Management Improvement Act of
Risk of Noncompliance With the
                                   1996 (FFMIA)6 establishes in statute certain financial
Federal Financial Management
                                   management systems requirements that were already
Improvement Act of 1996
                                   established by Executive Branch policies. The FFMIA was
                                   intended to advance Federal Government financial
                                   management by ensuring that Federal management systems
                                   can and do provide reliable, consistent disclosure of
                                   financial data. Further, this disclosure should be done on a
                                   basis that is uniform across the Federal Government from
                                   year to year by consistently using professionally accepted
                                   accounting standards. Specifically, FFMIA § 803 (a)
                                   requires each agency to implement and maintain systems
                                   that comply substantially with:
                                   •     Federal Government financial management system
                                         requirements.
                                   •     Applicable Federal Government accounting standards.
                                   •     The Government Standard General Ledger at the
                                         transaction level.
                                   The Federal Financial Management System Requirements
                                   are a series of publications prepared by the JFMIP as the
                                   key requirements that agency systems must meet to be
                                   substantially compliant with generally accepted accounting
                                   principles for the Federal Government.
                                   In the last several years, the GAO has reported numerous
                                   financial management weaknesses in its audits of the IRS

                                   6
                                       Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                         Page 3
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     annual financial statements and related assessments of
                     internal control. The IRS has proposed the IFS as the
                     remedy for administrative financial management
                     weaknesses.
                     As a result of our analysis and observations performed with
                     responsible CFO staff, numerous concerns were identified
                     during system testing. We believe these concerns may put
                     the IRS at risk of being noncompliant with FFMIA
                     requirements. Specifically:
                        •   The IFS Status of Funds Report that shows the
                            budget, commitments, obligations, expenditures, and
                            available budget balance at each level and sublevel
                            of the IRS does not roll up to reflect an accurate
                            status of funds needed for executive management’s
                            day-to-day decision making. The IRS identified this
                            condition during system testing and is working with
                            the vendor to correct the situation. The JFMIP
                            requires that the core financial system provide
                            complete, reliable, consistent, timely, and useful
                            financial management information on operations to
                            enable individual operating components, divisions,
                            bureaus, and other subunits to carry out their
                            fiduciary responsibilities; deter fraud, waste, and
                            abuse of resources; and facilitate efficient and
                            effective delivery of programs by relating financial
                            consequences to program performance.
                        •   The IFS cannot produce the Statement of Net Cost
                            in accordance with Office of Management and
                            Budget (OMB) Bulletin No. 97-01, Form and
                            Content of Agency Financial Statements, because the
                            system is currently unable to split costs between
                            Federal and non-Federal entities. The IRS is
                            working with the vendor and hopes to correct the
                            situation by January 2005. If they are unable to do
                            so, the IRS will need to initiate a workaround to deal
                            with the situation. The JFMIP requires that the
                            financial system facilitate the preparation of
                            financial statements and other financial reports in
                            accordance with Federal accounting and reporting
                            standards.
                                                                           Page 4
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                        •   The cost accounting module of the IFS, envisioned
                            for implementation in October 2004, will not
                            accumulate full cost for major IRS programs,
                            reimbursable work, or chargeable user fees as
                            required in the Federal Accounting Standards
                            Advisory Board’s Statement of Federal Financial
                            Accounting Standard No. 4, Managerial Cost
                            Accounting Concepts and Standards, and OMB
                            Circular No. A-25, User Charges. At this time, the
                            system has the capability, but the IRS does not or at
                            times can not collect detailed programmatic
                            information from feeder systems to support full
                            costing. The system envisioned for implementation
                            will accumulate fully burdened cost at an activity
                            level based on payroll codes, which is an
                            improvement over the current system. Although we
                            agree that this is a significant first step in developing
                            a viable cost accounting system, we do not believe
                            the IRS will rectify longstanding GAO and TIGTA
                            recommendations or meet JFMIP mandatory
                            requirements when the IFS is implemented. A cost
                            accounting system should provide the data needed
                            for accountability over the financial execution of
                            public programs; meaningful comparisons to
                            measure compliance with management policies;
                            evaluations of the efficiency and economy of
                            resources used in the various activities; and support
                            for fees, services, or products.
                        •   The IFS does not have the capability to display an
                            overrideable error message when attempting to post
                            previously unrecorded obligations relative to expired
                            funds during the current year as required by JFMIP
                            core requirements. The system as initially
                            configured prevented the posting of new requisitions
                            and obligations using expired funds. Additionally,
                            the system was configured to prevent the posting of
                            an obligation without a requisition for current and
                            expired funds. The IRS chose as a workaround to
                            reconfigure the system to allow new obligations
                            against expired funds and to control this
                            functionality through system user authorization
                                                                              Page 5
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                            levels. Five employees will be authorized to
                            obligate funds without a requisition posted in the
                            system. Although this workaround may solve the
                            situation, it increases the risk that unauthorized
                            obligations can be recorded in the system without a
                            previously posted requisition.
                        •   The IFS cannot accurately produce individual or
                            consolidated Wage and Tax Statements (Form W-2)
                            for employees who incur taxable income involving
                            multiple state tax withholdings. The system can
                            only produce multiple Forms W-2 with each one
                            showing the employee’s individual state tax
                            withholding, but showing total taxable income on
                            each Form. This condition could cause employees
                            to overstate their Federal income, if they follow
                            tax-reporting instructions that state, in general, to
                            enter all income amounts on their Federal tax return
                            shown on each Form W-2 received. The IRS
                            identified this condition during system testing
                            and has informed the vendor of the situation.
                            The vendor informed the IRS that a solution will
                            be provided with its release of tax updates in
                            November 2004. If the update is not provided
                            timely, the IRS has planned for compensating
                            controls outside of the IFS to correct this situation.
                     In addition to the conditions identified during our detailed
                     audit tests, the IRS informed us that as of May 21, 2004,
                     142 JFMIP requirements are being moved to future IFS
                     releases due primarily to the fact that the IFS version the
                     IRS acquired was geared to commercial use and would have
                     been too expensive to re-fit for government use. Further, a
                     majority of the moved requirements should be met by the
                     currently existing government version of the IFS. Examples
                     of requirements not fully functional in the commercial
                     version of the IFS include the ability of the system to record
                     full or partial receipt and acceptance of goods and services
                     by line item and the ability to indicate if a payment is partial
                     or final. Also, the commercial version is not able to meet
                     the requirement to maintain accounts for reimbursable
                     orders and identify government and nongovernment
                     accounts that are designated as advance funding.
                                                                              Page 6
             The Integrated Financial System Software Does Not Comply With
              Some Accounting Standards or Contain Certain Functionality
                           as Originally Asserted by the Vendor

                                  Further, the IRS has identified five JFMIP requirements
                                  needing implementation as soon as possible. Three of these
                                  five pertain to the preparation of the Statement of Net Cost.
                                  The IRS is working with the contractor to obtain the needed
                                  functionality of these requirements in future module releases
                                  and system upgrades.

                                  Recommendation

                                  1. The CFO should ensure all JFMIP and FFMIA
                                     requirements and accounting standards are operating
                                     before the IFS deployment. If this is not feasible, the
                                     IRS should move to the government version of the IFS
                                     as soon as possible, and the CFO should ensure these
                                     requirements are included in that version.
                                  Management’s Response: Given the time scheduled for
                                  implementation and the complexity of the project, the CFO
                                  did everything possible to ensure relevant JFMIP and
                                  FFMIA requirements and accounting standards were
                                  delivered in Release 1 of the IFS. The CFO will ensure
                                  those requirements not satisfied in Release 1 are
                                  implemented in subsequent enhancements or upgrades.
                                  However, as indicated in the report, subsequent planned
                                  releases of the IFS have been put on hold due to the current
                                  IRS funding situation. Upon successful implementation of
                                  the IFS Release 1, the CFO will develop an action plan to
                                  address enhancements and future releases of the IFS –
                                  especially the upgrade to the Federal Government version of
                                  the software which should close many of the existing JFMIP
                                  gaps.
                                  During system integration and configuration, the IRS
Asserted Out of the Box           identified 531 functional requirements, as of
Requirements Were Not Met by      May 21, 2004, that were not met by the IFS. These
Vendor Software                   requirements are being either deferred to future IFS releases
                                  or designated as needing immediate attention. Of these
                                  531 requirements not met, 473 were asserted by the IFS
                                  software subcontractor as being met “Out of the Box.”
                                  Section C of Task Order (TO) number 0091 of the IRS’
                                  implementation contract related to the preliminary
                                  development of the IFS states in general, under the
                                                                                        Page 7
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     Performance Based Work Statement Matrix heading of
                     Performance Standard, that the system design meets
                     100 percent of selected requirements as asserted by the
                     software subcontractor as “Out of the Box.” Section C,
                     Performance Standard Number four defines “Out of the
                     Box” requirements as those that would be met by means of
                     configuration only and the requirement would be met
                     without modifying code or making database changes that
                     would add time, effort, or complexity to upgrades.
                     Section G, item H.7, goes on to state that any differential
                     costs associated with approved deviations from the
                     performance standard to meet 100 percent of selected
                     requirements “Out of the Box” would be borne by the
                     software subcontractor and are unallowable costs under the
                     TO. Differential costs are defined as any costs over and
                     above the costs to meet the requirements through
                     configuration.
                     Because of system requirement deferrals, the IRS is forced
                     to develop workarounds to ensure accounting standards are
                     met when the system is deployed. For example, the IFS
                     does not meet the system requirement to provide the
                     capability to automatically offset payments to vendors based
                     on current outstanding receivables. In another example, the
                     IFS does not have the capability to split an invoice into
                     multiple payments on the appropriate due dates when items
                     on the invoice have different due dates or discount terms.
                     Per the IRS, as of June 30, 2004, approximately
                     $137.8 million has been obligated for IFS implementation
                     TOs and other obligations, with the IRS recording
                     expenditures of approximately $121.1 million against those
                     obligations. Of those amounts, approximately
                     $113.8 million and $98.3 million represent obligations and
                     expenditures, respectively, to the IFS vendor. These
                     amounts only include external costs and do not include costs
                     incurred for IRS personnel or resources.
                     We understand negotiations were recently completed to deal
                     with the issue of deferred requirements that were asserted by
                     the software subcontractor as “Out of the Box” and an
                     amendment to the relevant TO was signed on July 15, 2004.
                     Notwithstanding these recent negotiations, we believe IRS
                                                                           Page 8
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     resources are at risk if it does not take a coordinated and
                     firm stance when dealing with the vendor when it pertains to
                     the delivery of system requirements (i.e., the participation of
                     the CFO, Chief Information Officer (CIO), and Procurement
                     staffs, as needed, to ensure that system implementation,
                     accounting functionality, and acquisition regulation
                     concerns are jointly represented and presented). Also, if
                     further negotiations are required, the IRS needs to consider
                     not only the cost to implement any further deferred
                     requirements, which would represent unallowable costs
                     under the contract, but to also consider the financial impact
                     of IRS resources needed to identify and ensure the ultimate
                     implementation of the requirements into the IFS. These
                     costs should also include the cost of workarounds needed to
                     ensure IRS systems meet accounting standards.

                     Recommendations

                     The CFO, in concert with the Director of Procurement and
                     the Associate CIO, Business Systems Modernization,
                     should:
                     2. Ensure a coordinated and united stance is taken when
                        conducting any negotiations with the IFS contractor
                        concerning the cost associated with the functionality of
                        accounting requirements that were asserted to be ready
                        for deployment by the software subcontractor.
                     Management’s Response: The CFO has implemented the
                     recommendation to coordinate the IFS contract negotiations
                     with the Director, Procurement, and the Associate CIO,
                     Business Systems Modernization.
                     3. Ensure all costs are considered when any negotiations
                        are held concerning system requirement deferrals.
                     Management’s Response: As recommended, the IRS has
                     worked together to ensure all costs associated with
                     requirements that were asserted to be ready for deployment
                     by the software subcontractor, but not delivered in
                     Release 1, were included in the negotiations. The IRS’
                     current contract is a cost-sharing contract where the IRS is
                     responsible for 24 percent of the costs and the contractor is

                                                                             Page 9
              The Integrated Financial System Software Does Not Comply With
               Some Accounting Standards or Contain Certain Functionality
                            as Originally Asserted by the Vendor

                                   absorbing 76 percent of the costs incurred from
                                   May 1, 2004, through January 31, 2005.
                                   Office of Audit Comment: The IRS, when acquiring
                                   subsequent releases of the IFS containing the requirements
                                   that were asserted by the subcontractor to be functional in
                                   Release 1, should take into consideration any significant
                                   deviations from the concessions received during the recent
                                   negotiations when estimating or accepting a price for those
                                   future releases.
                                   The JFMIP has stated that of the many critical tasks
Data Conversion Efforts Are
                                   necessary to successfully implement a new financial system,
Progressing
                                   data conversion7 is one of the most frequently
                                   underestimated. From the outset, it should be understood
                                   that financial systems data conversion is a complex and
                                   difficult task that requires highly skilled staff to conduct
                                   successfully. If data conversion is done right, the new
                                   system has the opportunity for success. The JFMIP
                                   concludes by stating that converting data incorrectly has
                                   lengthy and long-term repercussions.
                                   The IRS’ contractor has developed a Data Conversion Test
                                   Plan describing procedures to execute and document the
                                   unit testing of all data conversion components, followed by
                                   comprehensive end-to-end testing via mock data conversion
                                   cycles.
                                   Unit testing includes validating that each conversion
                                   program for a given component performs according to the
                                   technical specifications and expected results are
                                   documented in the test scripts. The mock conversion tests
                                   test the full data conversion life cycle and are executed
                                   before the production cutover is performed to ensure that the
                                   timing of the conversion is as short as possible and that all
                                   data anomalies have been addressed.
                                   Finally, test scripts were created to support the unit testing
                                   of each conversion component, as well as the mock
                                   conversions. The scripts include expected results for each
                                   test. During test execution, if a conversion is not successful


                                   7
                                    Data conversion is the modification of existing data to enable it to
                                   operate with similar functional capability in a different environment.
                                                                                                   Page 10
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     because of a flaw in the functional design of the conversion
                     or a flaw in the conversion program, a defect report is
                     logged and tracked until the conversion of the component is
                     successful.
                     The primary sources of legacy data are the Automated
                     Financial System,8 the Budget Formulation System/Plan
                     Development System, and the Requisition Tracking
                     System/Integrated Procurement System. The primary
                     targets include various financial components of the IFS
                     software and the Strategic Enterprise Management/Business
                     Warehouse component. The conversion teams will utilize
                     both manual and automated conversion methods to
                     accomplish their tasks.
                     The contractor, along with the IRS, has developed selection
                     criteria and validation methods for all the components of
                     data conversion. Additionally, the IRS has formed a team to
                     independently validate all converted information using their
                     own validation tools and acceptance criteria.
                     As of July 21, 2004, the IFS data conversion’s first two
                     mock cycles failed because the system’s environment was
                     constantly changing. The third cycle was completed and the
                     year-end closing of accounts was demonstrated, but some
                     problems were encountered that still need to be resolved.
                     The IRS’ validation team is currently evaluating the results
                     of the third mock conversion cycle to ensure all data were
                     accurately recorded. A future data conversion cycle is
                     planned after all changes to the process have been
                     implemented. The IRS will use this cycle to determine if all
                     system changes were successfully implemented and to
                     approximate how long the conversion process will take
                     when the system is implemented.




                     8
                       A computer-based financial accounting system used by the IRS to
                     track appropriations and expenditures.


                                                                                  Page 11
              The Integrated Financial System Software Does Not Comply With
               Some Accounting Standards or Contain Certain Functionality
                            as Originally Asserted by the Vendor

                                   In a prior TIGTA audit report9 concerning IFS requirements
Progress Has Been Made to
                                   definition, we reported that the IRS established a framework
Ensure All Joint Financial
                                   to identify material administrative accounting requirements
Management Improvement
                                   for inclusion in the IFS. However, we did identify
Program Requirements Are
                                   64 JFMIP requirements that were not specifically or fully
Addressed
                                   addressed in the IFS’ System Requirements Report (SRR),
                                   which represents the detailed design of the IFS. Of these
                                   64 requirements, 36 represented mandatory JFMIP
                                   requirements and 28 represented value-added requirements.
                                   We recommended that the Acting CFO, along with the IFS
                                   contractor, ensure that the identified JFMIP requirements
                                   were fully addressed and incorporated into the IFS’ SRR.
                                   In management’s response, CFO officials stated they had
                                   assessed the missing or incomplete JFMIP requirements
                                   included in the report and provided assurances that the
                                   requirements either are addressed through a collection of
                                   requirements in the SRR or will be addressed by ensuring
                                   that the requirements are included in future releases of the
                                   IFS.
                                   Of the 36 JFMIP mandatory requirements, we agree the
                                   IRS has addressed 30 of the requirements, and that
                                   2 requirements are not valid for IRS’ business processes.
                                   The remaining four requirements, which pertain to the
                                   property and travel modules, are to be addressed in future
                                   releases of the IFS. Since these modules are not yet
                                   formulated or the IRS has not initiated related change
                                   requests on them, we were unable to assess whether these
                                   requirements were added to the IFS’ SRR.
                                   For the 28 value-added requirements, we agree the IRS has
                                   addressed 7 of the requirements. The remaining
                                   21 requirements, which mostly pertain to the property,
                                   travel, and seized assets management modules, are to be
                                   addressed in future releases of the IFS. As with the
                                   mandatory requirements being addressed in future releases,
                                   we were unable to assess whether these requirements were
                                   added to the IFS’ SRR. Although the IRS is not mandated
                                   to implement value-added requirements, we believe the IRS

                                   9
                                    Requirements Definition of the Integrated Financial System
                                   (Reference Number 2003-10-179, dated August 2003).
                                                                                                 Page 12
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                     should continue to assess the requirements when designing
                     future releases.

                     Recommendation

                     4. The CFO should ensure the remaining JFMIP
                        requirements are added to subsequent versions of the
                        SRR and are included in future IFS releases.
                     Management’s Response: The CFO will ensure any
                     requirements not satisfied in Release 1 are identified and
                     implemented in subsequent enhancements or upgrades.
                     However, as indicated in the report, subsequent planned
                     releases of the IFS have been put on hold due to the current
                     IRS funding situation. Upon successful implementation of
                     the IFS Release 1, the CFO will develop an action plan to
                     address enhancements and future releases of the IFS –
                     especially the upgrade to the Federal Government version of
                     the software which should close many of the existing JFMIP
                     gaps.




                                                                         Page 13
               The Integrated Financial System Software Does Not Comply With
                Some Accounting Standards or Contain Certain Functionality
                             as Originally Asserted by the Vendor

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Integrated Financial System
(IFS), when implemented, would function as intended to provide administrative financial
management information that is essential for financial statement preparation and useful to
Internal Revenue Service managers and others. To accomplish this objective, we:

I.      Verified that IFS financial system requirements and related internal controls were
        effectively identified and tested and would deliver an integrated financial system that
        meets established financial requirements when implemented.

        A.       Reviewed IFS general ledger posting guidance for consistency with established
                 Office of Management and Budget guidance, legislative mandates, and Federal
                 accounting standards.
        B.       Reviewed System Integration Testing – 2 (Release 1) procedures and plans to gain
                 an understanding of the testing process.
        C.       Judgmentally selected 164 of approximately 2,900 system requirements based on
                 9 accounting functional areas1 that we believed, if validated, would provide a basis
                 to reach conclusions about the overall functionality of the IFS. The 164 system
                 requirements affected 58 test cases that we attempted to analyze. Our planned
                 analysis involved review of the test case, observation of the actual test, review of
                 post-test supporting documentation, and discussions with subject matter experts
                 concerning the test results.
        D.       Of the selected 58 test cases, we were able to review 53 test cases for
                 reasonableness and ability to exhibit the functionality of the affected system
                 requirement. Four test cases were found to be deleted and one was a duplication of
                 another test case. However, due to initial untimely notification of test scheduling,
                 we were only able to observe 29 of the selected 58 test cases. Further, we were
                 only provided 48 of the post-test documentation folders prior to completion of our
                 fieldwork. Although affecting the scope of our originally planned audit work, we
                 do not believe that these limitations affected the overall accomplishment of our
                 audit objective. One area that did have some impact on the accomplishment of our
                 audit objective was the way the testing process, as well as the test cases, changed as

1
 The nine accounting functional areas included 1) Audit Trail, Security, and Internal Control; 2) Cost Accounting;
3) Fixed Assets; 4) M-Year Legislation; 5) Receipt and Acceptance; 6) Reimbursable Work Authorizations;
7) Reporting; 8) Taxable Transactions; and 9) Travel Advances and Obligations.
                                                                                                           Page 14
              The Integrated Financial System Software Does Not Comply With
               Some Accounting Standards or Contain Certain Functionality
                            as Originally Asserted by the Vendor

                 we attempted to perform our audit analyses. Consequently, we were unable to
                 reach a final conclusion on the nine accounting functional areas and, therefore, the
                 IFS as a whole. However, our audit work did identify areas where we believe a
                 degree of risk exists that the IFS may not meet the Joint Financial Management
                 Improvement Program’s (JFMIP)2 requirements or where requirements will only be
                 met through workarounds.
        E.       Discussed with subject matter experts the extent of the security audit trail detail
                 (such as employee login and activity while on the system) and how it will
                 function after implementation of the IFS.
        F.       Discussed with subject matter experts if auditability functions are being
                 contemplated for the IFS.
II.     Verified data conversion plans from the legacy financial system to the IFS were
        developed and testing was progressing.
III.    Followed-up on previously reported conditions contained in our requirements definition
        report3 concerning 64 JFMIP requirements that were either missing or that were not fully
        addressed in the Systems Requirements Report.
IV.     Assessed the impact on compliance with laws and regulations of deleted or deferred
        requirements that were asserted to be functional by the software subcontractor, and the
        overall cost to the project.




2
  The JFMIP is a joint undertaking of the United States Department of the Treasury, the Government Accountability
Office (formerly the General Accounting Office), the Office of Management and Budget, and the Office of
Personnel Management, working in cooperation with each other and other agencies to improve financial
management practices in the Federal Government.
3
  Requirements Definition of the Integrated Financial System (Reference Number 2003-10-179, dated August 2003).




                                                                                                        Page 15
            The Integrated Financial System Software Does Not Comply With
             Some Accounting Standards or Contain Certain Functionality
                          as Originally Asserted by the Vendor

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Bobbie M. Draudt, Lead Auditor
Gary D. Pressley, Senior Auditor
Richard E. Louden, Auditor
Peter L. Stoughton, Auditor




                                                                                      Page 16
           The Integrated Financial System Software Does Not Comply With
            Some Accounting Standards or Contain Certain Functionality
                         as Originally Asserted by the Vendor

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Associate Chief Financial Officer for Internal Financial Management OS:CFO:I
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons: Chief, Agency-Wide Shared Services OS:A
                 Chief Financial Officer OS:CFO
                 Chief Information Officer OS:CIO




                                                                                    Page 17
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor

                                                            Appendix IV


        Management’s Response to the Draft Report




                                                                 Page 18
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor




                                                                Page 19
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor




                                                                Page 20
The Integrated Financial System Software Does Not Comply With
 Some Accounting Standards or Contain Certain Functionality
              as Originally Asserted by the Vendor




                                                                Page 21
